APPENDIX

Appellate Case: 20-1188

A

Document: 010110366213

Date Filed: 06/25/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 25, 2020
Christopher M. Wolpert
Clerk of Court

RUBEN ARAGON,
Petitioner - Appellant,
v.
DEAN WILLIAMS, Executive Director,
C.D.O.C.; THE ATTORNEY GENERAL
OF THE STATE OF COLORADO,

No. 20-1188
(D.C.No. 1:19-C V-01811 -LTB-GPG)
(D. Colo.)

Respondents - Appellees.
ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.
Petitioner, a Colorado state prisoner proceeding pro se, filed a habeas petition
pursuant to 28 U.S.C. § 2254 in the District of Colorado asserting a violation of his
Fourteenth Amendment due process rights based on an alleged breach of his plea
agreement. The district court dismissed Petitioner’s application as untimely and denied
him a certificate of appealability (“COA”). Now, Petitioner seeks a COA before this court.
If the district court denies a habeas petition on procedural grounds without reaching
the petitioner’s underlying constitutional claim, a COA will issue when the petitioner

* This order is not binding precedent except under the doctrines of law of the case, res
judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 20-1188

Document: 010110366213

Date Filed: 06/25/2020

Page: 2

shows “jurists of reason would find it debatable whether the petition states a valid claim of
the denial of a constitutional right” and “jurists of reason would find it debatable whether
the district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
478 (2000). The petitioner must satisfy both parts of this threshold inquiry before we will
hear the merits of the appeal. Gibson v. Klinger, 232 F.3d 799, 802 (10th Cir. 2000).
For the reasons explained below, no reasonable jurist could conclude the district
court’s procedural ruling was incorrect. Petitioner’s claims are indisputably time-barred
under 28 U.S.C. § 2244(d), and he is not eligible for equitable tolling. Therefore,
exercising jurisdiction under 28 U.S.C. §§ 1291 and 2253(a), we deny Petitioner’s
application for a COA and dismiss this appeal.
* * *

To understand why Petitioner’s claims are time-barred, we must briefly address the
factual basis for his claims. In 1997, Petitioner pleaded guilty to one count of distribution
of a controlled substance in the District of Colorado. The district court sentenced him to
120 months’ imprisonment, to run consecutively to the Kentucky state sentence Petitioner
was currently serving. The district court was silent as to whether the federal sentence
would run consecutively or concurrently to any future sentences Petitioner might receive.
Thereafter, in 1998, Petitioner pleaded guilty to one count of second-degree murder
and one count of distribution of a controlled substance in Colorado state court. The
judgment provided that Petitioner would serve 48 years’ imprisonment for second-degree
murder and 22 years’ imprisonment for distribution of a controlled substance. The

2

Appellate Case: 20-1188

Document: 010110366213

Date Filed: 06/25/2020

Page: 3

judgment “ordered or recommended” that the sentences run consecutively to each other
and concurrently with Petitioner’s Kentucky state sentence and federal sentence.
On June 20, 2019—more than ten years after his Colorado state conviction became
final—Petitioner filed this action. Petitioner claims he recently learned the federal court
determines whether its sentences run concurrently or consecutively to a state sentence.
And “if a federal sentence is silent as to whether it is imposed concurrently or consecutively
.. . the federal sentence automatically defaults to being consecutively imposed.” Because
Petitioner’s federal sentence is silent as to whether it would run concurrently or
consecutively to any future sentence, Petitioner asserts the federal sentence will be served
consecutively to his Colorado state sentence. This, he argues, violates his Colorado state
court plea agreement which “promised” him that his state sentence would run concurrently
to any federal sentence. The district court dismissed the petition as time-barred.
* * *

The Antiterrorism and Effective Death Penalty Act of 1996 prescribes a one-year
statute of limitations for habeas petitions. See 28 U.S.C. § 2244(d)(1). Generally, the oneyear period will run from the date on which the judgment becomes final. See Nguyen v.
Golder, 133 F. App’x 521, 523 (10th Cir. 2005) (unpublished); 28 U.S.C. § 2244(d)(1)(A).
Petitioner acknowledges more than one year has passed since his conviction became final
in 1998. Petitioner nonetheless argues he timely filed his habeas petition because he filed
the petition within one year of the removal of a state-created impediment.
Under 28 U.S.C. § 2244(d)(1)(B), when the state creates an impediment that
prevents the petitioner from filing on time, the one-year limitation does not begin to run
3

Appellate Case: 20-1188

Document: 010110366213

Date Filed: 06/25/2020

Page: 4

until the impediment is removed. Id. In this case, Petitioner contends the Government
“hoodwinked” him and promised him something the state could not guarantee—that his
Colorado state sentence would run concurrently to his federal sentence. Petitioner argues
this alleged fraud constitutes a state-created impediment to timely filing, and that this
impediment was not removed until he learned of the fraud in 2017. Petitioner’s claim is
without merit.
A review of our case law shows 28 U.S.C. § 2244(d)(1)(B) typically applies when
the state thwarts a prisoner’s access to the courts, for example, by denying an inmate access
to his legal materials or a law library. See Garcia v. Hatch, 343 F. App’x 316, 318 (10th
Cir. 2009) (unpublished) (collecting cases).

We have further held the state-created

impediment must have actually prevented the inmate from filing his application. Id. at 319.
In this case, assuming arguendo the state fraudulently induced Petitioner’s plea, Petitioner
makes no claim that he was unable to discover the alleged fraud because, for instance, he
did not have access to his legal materials or a law library. No state action actively prevented
Petitioner from learning his state sentence would run consecutively to his federal sentence.
In fact, the state court judgment that Petitioner attached to his pleadings merely
“recommended” that his state sentence run concurrently with his federal sentence. The fact
that Petitioner did not inquire into the nature of his sentences or conduct legal research
until 2017 is not attributable to the state. Accordingly, Petitioner’s habeas application is
not timely filed under 28 U.S.C. § 2244(d)(1)(B).
Petitioner alternatively suggests his petition is timely under 28 U.S.C.
§ 2244(d)(1)(D). Under this subsection, a habeas petition may be brought within one year
4

Appellate Case: 20-1188

Document: 010110366213

Date Filed: 06/25/2020

Page: 5

of “the date on which the factual predicate of the claim or claims presented could have
been discovered through the exercise of due diligence.” 28 U.S.C. § 2244(d)(1)(D). The
test under § 2244(d)(1)(D) is not when the petitioner obtained actual knowledge of the
basis for his claims, but rather the date on which the factual predicate of the claim could
have been discovered through the exercise of due diligence. Id.
Here, the factual predicate underlying Petitioner’s claim—that his state and federal
sentences are consecutive—was discoverable on the day Petitioner’s state court conviction
became final. At that time, Petitioner had already been sentenced in federal court. Thus,
he could have known then that his federal sentence was silent as to whether it would run
consecutively or concurrently to future state sentences. He also could have known that his
state court judgment merely “recommended” his state sentence run concurrent to his
federal sentence. While Petitioner only recently learned of the legal implications of his
federal sentence, the factual predicate existed over ten years ago. See Perez v. Dowling,
634 F. App’x 639, 644 (10th Cir. 2015) (explaining § 2244(d)(1)(D) concerns the factual,
not legal, basis for an inmate’s claims). Accordingly, Petitioner’s claims are time-barred
under 28 U.S.C. § 2244(d)(1)(D).
Finally, although we conclude Petitioner’s habeas application is untimely under 28
U.S.C. § 2244(d)(1), we must decide whether Petitioner is entitled to equitable tolling.
“Generally, a litigant seeking equitable tolling bears the burden of establishing two
elements: (1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way.” Sigala v. Bravo, 656 F.3d 1125, 1128 (10th Cir. 2011)
(citing Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). As a result, equitable tolling is
5

Appellate Case: 20-1188

Document: 010110366213

Date Filed: 06/25/2020

Page: 6

only available in rare and exceptional circumstances, and “a garden variety claim of
excusable neglect is not enough.” Id. (citing Irwin v. Dep’t of Veterans Affairs, 498 U.S.
89, 96 (1990)).
In this case, Petitioner does not present any extraordinary circumstance that stood
in his way of discovering his state and federal sentences would run consecutively. We
have held that “ignorance of the law, even for an incarcerated pro se petitioner, generally
does not excuse prompt filing.” Marsh v. Soares, 223 F.3d 1217, 1220 (10th Cir. 2000)
(citing Fisher v. Johnson, 174 F.3d 710, 714 (5th Cir. 1999)). Petitioner’s only claim for
equitable tolling is that he did not realize his federal sentence would run consecutively to
his state sentence until he spoke with his case manager in 2017. Although Petitioner’s
belated realization might amount to excusable neglect, it is insufficient to support equitable
tolling. Thus, Petitioner is not entitled to equitable tolling.
* * *

For all these reasons, no reasonable jurist could conclude the district court’s
procedural ruling was incorrect. Petitioner’s claims are time-barred, and he is not eligible
for equitable tolling. Therefore, we deny Petitioner’s application for a COA and dismiss
this appeal. Petitioner’s motion to proceed IFP is granted.
Entered for the Court
Bobby R. Baldock
Circuit Judge

6

Case l:19-cv-01811-LTB-GPG Document 29 Filed 05/13/20 USDC Colorado Page 1 of 3
APPENDIX

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 19-CV-01811-LTB-GPG
RUBEN ARAGON,
Applicant,
v.
DEAN WILLIAMS, Executive Director, C.D.O.C., and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO,
Respondents.
ORDER OF DISMISSAL
This matter is before the Court on the Recommendation Regarding Dismissal
entered February 27, 2020 (ECF No. 25). Applicant filed timely objections (ECF No.
28). The Court has reviewed the Recommendation de novo in light of the file and
record in this case. On de novo review the Court concludes that the Recommendation
is correct.
“[A] party's objections to the magistrate judge's report and recommendation must
be both timely and specific to preserve an issue for de novo review by the district court.”
U.S. v. One Parcel of Real Prop., 73 F.3d 1057, 1060 (10th Cir. 1996).
In the objections (ECF No. 28), Applicant argues this action should not be
dismissed as untimely because he is entitled to equitable tolling. He alleges he relied
on his attorney’s representations regarding the plea agreement, as well as on the
prosecutor and state court, to his detriment. He states he “only just learned that his

1

B

Case l:19-cv-01811-LTB-GPG Document 29 Filed 05/13/20 USDC Colorado Page 2 of 3

Colorado sentence was not running concurrently to the federal sentence imposed by a
division of this Court in 2017.”
These arguments are unavailing. As a general matter, “attorney negligence is
not extraordinary and clients, even if incarcerated, must 'vigilantly oversee,’ and
ultimately bear responsibility for, their attorneys' actions or failures.” Fleming v. Evans,
481 F.3d 1249, 1255-56 (10th Cir. 2007) (citation omitted). The test under 28 U.S.C.
§ 2244(d)(1)(D) is not when Applicant obtained actual knowledge of the basis for his
claims, but “the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.” As explained in the
Recommendation, “Applicant’s own filings show he had the factual predicate of his
claim available to him at least by 2011,2012, and 2014, but did not seek related
postconviction relief until 2017.” (ECF No. 25 at 9).
“[l]gnorance of the law, even for an incarcerated pro se petitioner, generally does
not excuse prompt filing.” Marsh v. Soares, 223 F.3d 1217, 1220 (10th Cir. 2000)
(citation omitted). “A habeas petitioner is not entitled to equitable tolling simply because
he alleges his constitutional rights were violated during his trial or sentencing.” Winkler
v. Zavaras, 415 F. App'x 889 (10th Cir. 2011) (unpublished) (citation omitted).
For these reasons and the reasons set forth in the Recommendation (ECF No.
25), the Amended Application will be dismissed as time-barred. See Brown v. Roberts,
177 F. App’x 774, 778 (10th Cir. 2006) (“[djismissal of a petition as time barred operates
as a dismissal with prejudice”). Because the action is time-barred, the Court declines to
address whether the claims are exhausted.
The Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this
2

Case l:19-cv-01811-LTB-GPG Document 29 Filed 05/13/20 USDC Colorado Page 3 of 3

Order is not taken in good faith and, therefore, in forma pauperis status is denied for the
purpose of appeal. See Coppedge v. United States, 369 U.S. 438 (1962). If Applicant
files a notice of appeal, he must also pay the full $505 appellate filing fee or file a motion
to proceed in forma pauperis in the U.S. Court of Appeals for the Tenth Circuit within
thirty days in accordance with Fed. R. App. P. 24.
Accordingly, it is
ORDERED that the objections (ECF No. 28) are overruled. It is
FURTHER ORDERED that the Recommendation Regarding Dismissal (ECF No.
25) is accepted and adopted. It is
FURTHER ORDERED that the Amended Application for a Writ of Habeas
Corpus Pursuant to 28 U.S.C. § 2254 (ECF No. 14) is DENIED and this action is
DISMISSED WITH PREJUDICE as time-barred. It is
FURTHER ORDERED that no certificate of appealability will issue because
jurists of reason would not debate the correctness of the procedural ruling and Applicant
has not made a substantial showing of the denial of a constitutional right. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
DENIED WITHOUT PREJUDICE to the filing of a motion seeking leave to proceed in
forma pauperis on appeal in the United States Court of Appeals for the Tenth Circuit.
DATED at Denver, Colorado, this 13th day of

May

, 2020.

BY THE COURT:
s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court
3

APPENDIX

E*
k

C

17CA1590 Peo v Aragon 01-24-2019
COLORADO COURT OF APPEALS

DATE FILED: January 24, 2019
CASE NUMBER: 2017CA1590

Court of Appeals No. 17CA1590
Arapahoe County District Court No. 92CR2038
Honorable Patricia D. Herron, Judge

The People of the State of Colorado,
Plaintiff-Appellee,
v.
Ruben G. Aragon,
v

Defendant-Appellant.

ORDER AFFIRMED
Division VI
Opinion by JUDGE RICHMAN
Navarro and Welling, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced January 24, 2019

Philip J. Weiser, Attorney General, Elizabeth Rohrbough, Senior Assistant
Attorney General, Denver, Colorado, for Plaintiff-Appellee
Ruben G. Aragon, Pro Se
V

EXHIBIT J: Opinion from 17CA1590

1! 1

Defendant, Ruben G. Aragon, appeals the trial court’s denial of

his postconviction motion. We affirm.
112

In 1998, defendant pleaded guilty to second degree murder

and distribution of a schedule II controlled substance. He received
stipulated sentences of forty-eight years and twenty-two years in
the custody of the Department of Corrections (DOC), respectively.
Those sentences were imposed consecutive to each other, but
concurrent to sentences defendant had received in a separate
Colorado criminal case, criminal cases in Kentucky, and a federal
criminal case.
13

In 2012, defendant filed a Crim. P. 35(c) motion for

postconviction relief, asserting ineffective assistance of counsel,
which the trial court denied. A division of this court affirmed the
denial. See People v. Aragon, (Colo. App. No. 13CA0235, Sept. 25,
2014) (not published pursuant to C.A.R. 35(f)).
14

In 2017, defendant filed a Crim. P. 35(a) and (c) “Motion for

Withdrawal of Plea Agreement Based Upon an Illegal Sentence.” In
that motion, he alleged the following facts: (1) after the 1998
sentencing in this matter, defendant was immediately transported
to Kentucky to serve his sentences there; (2) in 2011, defendant
1

was transferred back to the custody of the Colorado DOC; and
(3) “[ijnstead of beginning his sentence in [the federal case] as
required by the federal plea agreement, federal authorities simply
placed a detainer on [defendant expecting him to complete his
70[-]year sentence in this case.” Defendant raised several
arguments based on these facts, seeking primarily to withdraw from
his plea agreement entered in this case. In a detailed written order,
the trial court denied defendant’s motion.
H5

The trial court first concluded that defendant was not entitled

to withdraw his guilty plea because the arguments he had raised in
his motion addressed whether the sentences were being enforced in
accordance with the plea agreement, not whether the sentences
were illegal at the time he entered into the plea agreement. It'thus
denied his motion to withdraw from the plea agreement.
16

The court then addressed the contentions that the sentences

were being improperly enforced. It concluded that the DOC had
properly credited defendant for the thirteen years he had served in
Kentucky, and had properly set his expected discharge date from
DOC as August 19, 2065.

2

17

The court also concluded that defendant was not entitled to

good time or earned time credits for the time he served in Kentucky
because Colorado statutes do not provide for such credits unless
the time is served in the custody of the DOC.
US'

The trial court also characterized defendant’s claims regarding

the federal detainer as “unspecified,” but to the extent they related
to his federal case, the court concluded that it lacked jurisdiction
with respect to those claims.
19

On appeal, defendant contends that (1) his sentence is illegal

because the trial court lacked the authority to order his federal
sentence to run concurrent to his Colorado sentence, (2) the
stipulated concurrent sentencing provision of his plea agreement
was breached because federal officials refused to exercise their
authority to run his federal sentence concurrent with his Colorado
sentence, and (3) his guilty plea is invalid because he detrimentally
relied on a promise that his Colorado and federal sentences would
be served concurrently.
1 10

Any arguments defendant made in his Crim. P. 35 motion that

are not specifically reasserted on appeal are abandoned, and we

3

/

therefore do not address them. See People v. Brooks, 250 P.3d 771
772 (Colo. App. 2010).
1(11

Initially, we note that the substance of defendant’s claims

could be deemed Crim. P. 35(c) issues and, therefore, the trial court
could have denied them as successive and untimely. See St. James
v. People, 948 P.2d 1028, 1030-35 (Colo. 1997) (breach of a plea
agreement and detrimental reliance arguments implicate
constitutional due process concerns and are reviewed under Crim.
P. 35(c)); see also§ 16-5-402(1), (1.5), C.R.S. 2018 (a collateral
attack on a conviction must be brought within three years of
conviction of an offense other than a class 1 felony and an appellate
court may deny relief if it determines that a collateral attack is
untimely, regardless of whether timeliness was considered by the
trial court); Crim. P. 35(c)(3)(VI)-(VII) (a trial court shall deny any
claim that was, or could have been, raised and resolved in a prior
appeal or postconviction proceeding on behalf of the same
defendant).
H 12

In addition, we conclude that the trial court did not err by

denying defendant’s motion on the merits for the following reasons.

4

-

1 13

The plea agreement signed by defendant indicated that the

sentence being imposed in this case would be concurrent to
defendant’s sentences in a separate Colorado case, the Kentucky
case and the federal case. Nothing in the plea agreement provided
that the trial court would attempt to modify the federal sentence to
run it concurrently with the Colorado sentence. Indeed, a state
criminal court has no jurisdiction over federal criminal cases. See
Colo. Const, art. VI, § 9(1); People v. Burgess, 946 P.2d 565, 569
(Colo. App. 1997) (district courts have original jurisdiction over
felonies committed in Colorado). Concurrent sentences imposed by
state judges are nothing more than recommendations to federal
officials. See Del Guzzi v. United States, 980 F.2d 1269, 1270 (9th
Cir. 1992). Indeed, the mittimus in defendant’s file in this case
reflects only that the court would “recommend” that the state
sentence be concurrent to the federal sentence.
1 14

After sentencing, defendant was transferred to Kentucky to

serve his sentences under the Kentucky convictions, and was given
credit against his Colorado sentences for the time served in
Kentucky. Thus, that portion of the concurrent sentences provision
of defendant’s plea agreement was honored by the DOC. His
5

release date is set for August 19, 2065, which reflects the balance of
his seventy-year sentence to the DOC.
1 15

Defendant’s assertion that there was a “federal detainer” that

reflects he will be required to serve his federal sentence, when and if
he is released from the DOC, is not supported by the record
presented to us. The attachment to defendant’s Rule 35 motion
that he claims is a “federal detainer” is actually minutes from a
federal court proceeding. It is unclear what proceeding the minutes
relate to, but it appears that they are from a date prior to
defendant’s state court sentencing in this case. So, to the extent
those minutes reflect that defendant’s federal sentence of 120
months will be served consecutive to any other sentence he was
then serving, it is not apparent that it refers to the sentence in this
case.
1 16

In any event, if defendant has a valid complaint about the

manner in which the federal sentence is carried out, his remedy is
to seek relief in the federal prison system, or the federal court, when
and if he is transferred to federal custody, but not to withdraw from
his Colorado plea agreement. See id. at 1271-73 (Norris, J.
concurring).
6

11 17

Lastly, nothing in the record before us supports defendant’s

claim that his guilty plea was based on detrimental reliance on a
promise that he would serve his federal sentence concurrent to the
Colorado sentence. Indeed, the transcript of the providency and
sentencing hearing has not been made available for our review. See
Till v. People, 196 Colo. 126, 127, 581 P.2d 299, 299 (1978) (“In the
absence of a transcript, we will presume that the findings and
conclusions of the trial court are correct, and that the evidence
supports the judgment.”).
11 18

Accordingly, the order denying defendant’s Crim. P. 35 motion

is affirmed.
JUDGE NAVARRO and JUDGE WELLING concur.

7

WVi.

tu W « i\l

VVI/I

vvwa« nvwti

lull IIV*

v.W(^UWs/l

• • UC.

: District Court, Arapahoe County
APPENDIX
Case 3: 1995 CR 208ft THu/Bn^. &
JUDGMENT OF CONVICTION. SENTENCE1"
AMENDED
The People of Colorado vs Aragon, ritorw a
302 12/16/105,®

D page 1

Tiie Defendant was sentenced on: 7/08/1SS8
People represented by...: S7SV2 LEE, EVA WILSON
*~"_aa* reic>r*efenLa^ oy: HTK2 5001-, JIM CASSEL
nr ^ ^
'?• CONVICTION this dato of: 7/08/1998
jne defendant pied guilty to:
S0^ f ,A -I
??£? SU3STANCE-DISTR13 2CH2D 2
£•*•8 * l8-i8-405(2)(a)(I)
Class: F3
Date of offense(a): 12/23/1992 Date of piea(s)- 7/08/1988
Count's
9 Charge: SECOND DEGREE MURDER
C.R.S s i8-3-l03{l)(a)
Class: F2
Date of offense(s): 12/23/1992 Date of plea(s); 7/08/1998
IT IS THE JUDGMBNT/SKNTENCE OF THIS COURT that the defendant be sentenced to
COLO DEPT OF CORRECTIONS FOR
'
22.00 YEARS
,00
COUNT
8
COLO
FOR
0)0 DEP?
, . 0?, CORRECTIONS
,
48.00 YEARS
c
.00
COUNT
m. ai" aay(s) of presentence confinement shall be given
-oe Defendant is NOT appropriate for the Regimented Inmato Training Program

rag*

fsss^s^n0iwsst^sfso

shall convey the
KEPT
ACCORDING TO LAW
COMRAP0 STATE DEPARTMENT 0? COSS2CTIOSS DIAGNOSTlS UNI? AT CANON*
CITY, CO.
additional requirements

COUR^cSs*?** Shali als° pay the fol:iowinS costs
30.00
VICTIM ASSISTANCE
VICTIM COMPENSATION
s
125.00
REQUEST FOR TIME TO PAY

s

125.00
25.00

" SETS a,«wSOTii?Iirai,SSwi?S2 ^5??TD^is-

assraaHis
DATE.

2-?-r? .

NPT.

JUDGE.

JAMHS F.

DISTRICT j*H5G£

rsgr

P.E. #7
JUL 10 >98 09:57

3037083551

PAGE.02

APPENDIX

D page 2

DISTRICT COURT, ARAPAHOE COUNTY/ COLORADO r
Case No.
________, Division

•' '•# LI

JUL -3 Pi i

PLEA AGREEMENT OF THE PARTIES

1: Ho

THE PEOPLE OF THE STATE OF COLORADO '
vs

QoUaa- /V VJjJcrYK.

m

m

■

Defendant.

A

/T^THE DEFENDANT HAS AGPEED TO PtEAD GUILTY TO COUNT (S) *K'<a

rt-HoS':) i,f?-s>-iosCT
i

THE PEOPLE HAVE AGREED TO DISMISS COUNT(S)

"Tt*fe(=A,

(i) ' W>u rAl j S) x k \

OlAX

6)

1

r\£
■gugXv 7~7~l

THE PEOPLE HAVE AGREED TO DISMISS CASES(S)
♦Insert offense and classification
(e.g.: "Theft[ F-4]")

SENTENCE AGREEMENT
1.
2.
3.
4.
5.

6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.

Deferred Judgment and Sentence: !
Probation:
Restitution:
Community Corrections (Condition/probation)
Community Corrections (Direct Sentence)
County Jail/Work Release:
County Jail/No work Release:
~b> Cocr^hi‘^
000:14% y/-ggrs> A5> TC) Cdv/TvV 0\We (t) 4 3-CL y^rs
Alternative Service Hours:
v
Drug/Alcohol Eval:_________
Drug/Alcohol Treatment:
Mental Health Evaluation:
!
Counseling:_____ ”
In-Patient Treatment:
No Contact with Victim(s):
No Contact with children under j
years of age:
No Access £o Firearms:
\
*, i ,

18. Other:Sg^Uaes i/AMSerl"dS
r^w-hs Ui^M1oaaA £'44
^73 faw **/nA SlO-Cgg^v. 6C'ov^urr-■e.yxi-- 4o qm jseiA-fgogeg

^lo Cofre v\4jy

(rc-vyui

DEFENSE COUNSEL: .

Reg. No.
Date:

^

DEFENDANT:

^iDCR-HW. Yc^SJ^-C^.

rlP.Pm’V/ DTSTRiPT -a^’^'ORNEY:

z
'

;
Reg.1
Date:
BY THE COURT:

003916
VICTIM APPROVAL:
HANSEN BROS. PRINTING
LITTLETON. CO (303) 794-0544

!

rc

